No. 21IN THE

Supreme Court of the United States
MONSANTO COMPANY,
Petitioner,
v.
EDWIN HARDEMAN,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 16th day of August, 2021, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

SETH P. WAXMAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
JENNIFER A. MOORE
MOORE LAW GROUP, PLLC
1473 South 4th Street
Louisville, KY 40208
(502) 717-4080
jennifer@moorelawgroup.com
AIMEE WAGSTAFF
DAVID WOOL
WAGSTAFF LAW FIRM, PC
940 N Lincoln Street
Denver, CO 80203
(303) 376-6360
Awagstaff@wagstafflawfirm.com
Dwool@wagstafflawfirm.com
LESLIE A. BRUECKNER
PUBLIC JUSTICE, PC
475 14th Street, Suite 610
Oakland, CA 94612
510-622-8205
lbrueckner@publicjustice.net

